HHS/OIG, Audit -"Review of Medicare Prescription Drug, Improvement, and Modernization
Act Modifications to Calendar Year 2004 Proposal - Horizon Healthcare of New Jersey, Inc.,"(A-02-05-01015)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicare Prescription Drug, Improvement, and Modernization Act Modifications
to Calendar Year 2004 Proposal - Horizon Healthcare of New Jersey, Inc.," (A-02-05-01015)
May 24, 2006
Complete Text
of Report is available in PDF format (176 kb). Copies can also be obtained by contacting
the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of our review was to determine whether Horizon Healthcare of New Jersey,
Inc.s (Horizons) use of its MMA payment increase was adequately supported and allowable
under MMA.  Horizons use of its MMA payment increase was adequately supported and allowable
under the MMA.  Horizon appropriately used the increased Medicare capitation payments
to reduce beneficiary premiums, enhance benefits, and stabilize and enhance beneficiary access
to providers.  Specifically, Horizon eliminated beneficiary premiums, enhanced benefits
by adding vision and prescription benefits, and increased capitation payments to primary
care providers.  Therefore, we did not make any recommendations.